                                               
 
 
 
 
 




    AUDIT OF THE FEDERAL BUREAU OF 

      INVESTIGATION’S CONVICTED 

         OFFENDER, ARRESTEE, 

      AND DETAINEE DNA BACKLOG 



            U.S. Department of Justice 

          Office of the Inspector General 

                   Audit Division 


                Audit Report 11-39 

                 September 2011

Introduction

       DNA analysis can be used to implicate or eliminate a suspect in an
investigation, solve cases previously considered unsolvable, link evidence
from different crime scenes, and aid in the identification of victims. Forensic
DNA can be obtained from crime scenes or from evidentiary items such as
envelopes, clothing, and drinking glasses, and then compared to samples
collected from known persons to identify the perpetrator of a crime. A single
forensic case can contain multiple pieces of evidence, each of which may
yield several samples. For example, in a sexual assault case, DNA evidence
left behind by a perpetrator may be collected from the victim’s body,
clothing, and the physical location where the assault occurred.

      In addition to forensic DNA evidence collected from crime scenes or
evidentiary items, federal laws require DNA samples to be collected from
persons who have been convicted of a federal crime (convicted offenders),
persons who have been arrested under federal authority (arrestees), and
persons who have been detained and who are not United States citizens
(detainees).1 The profiles generated from analyzing these DNA samples are
compared to forensic DNA samples collected during investigations to help
match DNA profiles from unsolved cases or cases without a suspect, thereby
providing key investigative leads to law enforcement agencies.2




                                                            
              1
         Legislation that defines the scope of DNA collection includes the 2001 USA
PATRIOT Act, which added qualifying offenses to the collection of DNA samples from
convicted offenders; the Justice for All Act of 2004, which expanded the offenses for
convicted offenders to include any federal offense; and the DNA Fingerprint Act of 2005,
which directed that the Attorney General may collect DNA samples from individuals who are
arrested or from non-United States persons who are detained under the authority of the
United States.
              2
         The process of generating a DNA profile begins with a sample of an individual's
DNA. The DNA sample goes through many different stages of processing and analysis that
produce a DNA profile. The DNA profile, which serves as a person’s unique identifier, is
then compared against other samples to determine whether there is a genetic match.

                                                               1
 
 
 
 

       From January 2004 through December 2009, the Federal Bureau of
Investigation Laboratory (FBI Laboratory) uploaded approximately 123,000
convicted offender, arrestee, and detainee DNA profiles into the Combined
DNA Index System (CODIS) – the national repository of DNA samples
collected by local, state, and federal law enforcement agencies. In
December 2009, FBI Laboratory reported that it had a backlog of over
312,000 convicted offender, arrestee, and detainee DNA samples waiting to
be processed. However, by September 2010, the FBI Laboratory reported
that it had eliminated the backlog, and from January 2010 through May
2011, the FBI Laboratory reported it had uploaded almost 500,000 DNA
profiles to CODIS.

OIG Audit Approach

      The U.S. Department of Justice (DOJ) Office of the Inspector General
(OIG) conducted this audit to review the FBI Laboratory’s efforts to reduce
and eliminate its backlog of convicted offender, arrestee, and detainee DNA
samples, and to determine the total amount of the backlog, if any. For the
purposes of this report, we defined “backlog” as DNA samples that the FBI
Laboratory had accepted but had not yet uploaded into CODIS. We
reviewed statistics on convicted offender, arrestee, and detainee DNA
samples from January 2004 through May 2011 in order to determine
whether the FBI had a backlog.

      To assess the FBI Laboratory’s efforts to reduce the backlog, we
interviewed officials responsible for administering the convicted offender,
arrestee, and detainee DNA program; toured the FBI Laboratory in Quantico,
Virginia; reviewed backlog reduction plans; and examined personnel and
automation costs. Appendix I contains a more detailed description of our
audit objectives, scope, and methodology.

Results in Brief

      Our review determined that as of September 2010, the FBI
Laboratory’s Federal DNA Database Unit had effectively eliminated its
backlog of convicted offender, arrestee, and detainee DNA samples. We
determined that the FBI reduced this backlog from over 312,000 samples in
December 2009 to a workload of approximately 14,000 samples in May
2011. As part of the unit’s backlog reduction efforts, from January 2010
through May 2011, the unit uploaded almost 500,000 profiles into CODIS.
The FBI currently has the capacity to analyze 60,000 profiles per month, and
as of September 2010, the unit was able to begin processing accepted DNA




                                     2

 
 

samples within 30 days of receipt.3 Our audit revealed that the FBI achieved
these results by implementing a backlog reduction strategy, hiring additional
personnel and contractors, using high throughput robotics, implementing
Expert System software for a semi-automated review of DNA profiles after
completion of analysis, and reconfiguring laboratory space for more efficient
processing.4 The FBI has achieved a significant accomplishment in reducing
the convicted offender, arrestee, and detainee DNA backlog to a manageable
monthly workload.

      The FBI implemented two plans to address the convicted offender,
arrestee, and detainee backlog, which gave the FBI tangible goals and
milestones to reduce its backlog. Additionally, the convicted offender,
arrestee, and detainee program was originally staffed by 5 personnel in
2001. Currently, the Federal DNA Database Unit has 33 personnel on-board
and 11 contractors to support the program. The FBI also implemented high
throughput robotics which allowed each robotic to process up to 850 DNA
samples in 2.5 hours and Expert System software to review profiles before
being uploaded to CODIS. Finally, the FBI Laboratory provided additional
space for the new personnel and robotics to help maximize efficiency.

       While the FBI was successful in reducing its backlog, we identified
some concerns with reporting backlog statistics, estimating future workload,
and storage space for DNA samples. Analyzing DNA samples has several
stages through which each sample must sequentially pass. We found that
from April 2005 through May 2011 the FBI Laboratory reported to
management its backlog of convicted offender, arrestee, and detainee
samples by only reporting the stage with the most backlogged samples,
rather than capturing all samples being processed across all stages. For
example, in December 2007, the FBI reported 152,457 samples in its
backlog, but this number only captured the DNA samples available for DNA
analysis and did not include the samples ready for examiner review. Our
review of records showed that in December 2007 the Federal DNA Database
Unit’s total backlog of convicted offender, arrestee, and detainee DNA
samples was actually 211,352.


                                                            
              3
         Accepted samples include all of the samples received during the month minus
those with administrative issues, such as duplicate samples or samples missing information.
Accepted samples are eligible for upload to CODIS once processed.
              4
         High throughput robotics refers to the automated equipment that the Federal DNA
Database Unit uses to analyze DNA samples. An Expert System is software or a set of
software programs that serves as a semi-automated review system that assists qualified
examiners in the review process by alerting them to samples that require a more thorough
manual review.


                                                               3

 
 

       Further, we noted that the Federal DNA Database Unit changed which
backlogged stage it reported in monthly status reports several times from
April 2005 through September 2010, and as of May 2011, the Federal DNA
Database Unit did not have a documented method for capturing its total
workload. We are concerned that the Federal DNA Database Unit does not
have documented policies, procedures, and reporting methods to ensure
backlog and workload levels are accurately identified and reported to
management. The lack of written policies and procedures can cause
inconsistent calculations and affect the ability to compare statistics over a
period of time. Accurate and consistent reporting is important because it
gives decision-makers the ability to identify and address problems.
Therefore, we recommend that the FBI develop and implement policies and
procedures to document the methodology used to report its workload
statistics and backlog calculations.

       The DNA Fingerprint Act of 2005 states that DNA samples may be
collected from non-U.S. citizens detained by the United States.5 Prior to the
enactment of the law, the FBI estimated that it would need to process up to
1 million DNA samples per year, primarily from detainees. However, the FBI
is not receiving the estimated volume of detainee DNA samples and does not
have clear criteria from the Department of Homeland Security (DHS)
regarding which DNA samples the DHS submits to the FBI Laboratory. We
recommend that the FBI coordinate with the DHS to determine the criteria
used to collect and submit detainee DNA samples. We also recommend that
the FBI, if appropriate, revise estimates for monthly sample receipt so that
the FBI Laboratory can plan for any influx of detainee DNA samples.

      While the FBI has provided additional space for personnel and robotics,
the storage space for DNA samples is still a concern. The FBI maintains its
processed DNA samples indefinitely because of required retesting to confirm
a CODIS match. As of May 2011 the FBI Laboratory had over 712,000 DNA
samples that required storage, and it anticipates having 1 million samples by
the end of the calendar year. Currently, the samples are stored in a room in
boxes stacked to the ceiling. The Federal DNA Database Unit is in the
process of procuring high density storage units and is considering long-term
storage, including off-site options; however, these two initiatives are still in
the planning stages. Offsite storage would add complexity to the storage
and retrieval protocols, and may increase risk regarding the maintenance of
                                                            
              5
          42 U.S.C. § 13701 note (2006). DNA Sample Collection, Analysis and Indexing in
28 C.F.R. § 28.12 (2008) does not require the Department of Homeland Security to obtain
DNA samples from aliens lawfully admitted, or in the process of being admitted to the
United States, aliens held in connection with maritime interdiction; or other aliens that the
DHS, in consultation with the Attorney General, determines that collection of DNA samples
is not feasible.


                                                               4

 
 

samples. With DNA samples arriving daily and storage space presently
limited, it is critical that the FBI finalize a long-term solution for DNA sample
storage.

       In our report, we make three recommendations to assist the FBI in
more accurately identifying, reporting, projecting, and storing its convicted
offender, arrestee, and detainee DNA sample workload. The following
sections of our report contain detailed information on the full results of our
audit.

Background

      The FBI Laboratory conducts analyses of forensic DNA evidence and of
convicted offender, arrestee, and detainee DNA samples. Historically, the
FBI Laboratory has had backlogs both in its forensic casework and its
convicted offender, arrestee, and detainee samples.6

       Processing offender, arrestee, and detainee DNA samples in a timely
manner is valuable to law enforcement because CODIS software matches
DNA profiles from unsolved cases or cases without a suspect to offender
profiles. DNA matches provide key investigative leads to investigators and
help to reduce victimization, particularly by serial offenders.

      The FBI Laboratory’s backlog in analyzing and uploading convicted
offender DNA samples was mainly the result of federal legislation that
expanded the scope of DNA sample collection from violent convicted federal
offenders to include anyone who commits a federal offense as well as non-
U.S. citizens who are detained in the United States.

      Specifically, the DNA Analysis Backlog Elimination Act of 2000
authorized officials from the Federal Bureau of Prisons and United States
Probation Offices to collect DNA samples from persons convicted of violent
federal offenses and to furnish the samples to the Director of the FBI.7 As a
result, in 2001, the FBI created the Federal Convicted Offender Program to
generate DNA profiles from samples taken from persons convicted of violent

                                                            
              6
          In Review of the Federal Bureau of Investigation Laboratory’s Forensic DNA Case
Backlog, Report 10-39 (August 2010), the OIG reported that the forensic DNA casework
backlog was growing. The demand on the FBI Laboratory to conduct forensic DNA casework
testing increased substantially, and the FBI Laboratory struggled to increase its capacity to
meet this growing demand. According to the FBI, the nuclear DNA casework backlog will be
eliminated by the end of the 2011 calendar year.
              7
                   42 U.S.C. § 14135a (2000).



                                                               5

 
 

federal offenses and to enter the profiles into the CODIS.8 From 2001
through 2003, this program had five FBI personnel assigned to process the
DNA samples and input the DNA profiles into CODIS. From the program’s
inception in 2001 through the end of 2004, the FBI Laboratory received an
annual average of nearly 8,000 DNA samples.

       In addition, the Justice for All Act of 2004, signed into law in October
2004, amended the DNA Analysis Backlog Elimination Act of 2000 to include
DNA collected in all federal felony offenses for submission to CODIS.9 As a
result of this legislation, the FBI Laboratory received more than 73,000 DNA
samples in 2005. Additional federal legislation further expanded the scope
of DNA collection. The DNA Fingerprint Act of 2005 and the Adam Walsh
Child Safety and Protection Act of 2006 authorized the Attorney General to
collect DNA samples from individuals who are facing charges, have been
arrested or convicted under federal authority, or are non-U.S. persons
detained under the authority of the United States.10 Between 2005 and
2010, the FBI Laboratory received a yearly average of approximately 96,000
DNA samples. In 2010 alone, the FBI Laboratory received over 153,000
DNA samples of convicted offenders, arrestees, and detainees. Through the
first 5 months of 2011, the FBI received over 100,000 samples. Exhibit 1
demonstrates the dramatic increase in convicted offender, arrestee, and
detainee DNA samples that the FBI received beginning in 2005.


                                                            
              8
          CODIS is a database of local, state, and national DNA profiles from convicted
offenders, unsolved crime scene evidence, and missing persons. Every state has a statutory
provision establishing a DNA database that allows for the collection of DNA profiles from
offenders convicted of particular crimes. CODIS software enables local, state, and national
law enforcement crime laboratories to compare DNA profiles electronically, thereby linking
crimes to each other and identifying suspects by matching DNA profiles from crime scenes
with profiles from convicted offenders. The FBI uploads DNA samples from convicted
offenders, arrestees, and detainees directly into the National DNA Index System, which is
the national database in CODIS. As of May 2011, there were over 10 million convicted
offender, arrestee, detainee, and forensic profiles in the National DNA Index System.
              9
                   42 U.S.C. § 13701 note (2004).
              10
           42 U.S.C. § 13701 note (2006) and 42 U.S.C. § 16901 (2006). There may be
some circumstances in which agencies collect fingerprints but the collection of DNA samples
would not be warranted or feasible. For example, in relation to non-arrestees, the
Department of Homeland Security will not be required to collect DNA samples from aliens
who are fingerprinted while in the process of seeking lawful admission to the United States
or from aliens from whom DNA sample collection is otherwise not feasible because of
operational exigencies or resource limitations. If any agency believes that such
circumstances exist within its sphere of operations, the agency should bring these
circumstances to the attention of the Department of Justice, and exceptions to the DNA
sample collection requirement may be allowed with the approval of the Attorney General.


                                                               6

 
 

       Exhibit 1: Annual Total of Convicted Offender, Arrestee, and 

    Detainee DNA Samples the FBI Received from July 2001 – May 2011 



                                               180,000
              Number of DNA Samples Received




                                               160,000

                                               140,000

                                               120,000

                                               100,000

                                                80,000

                                                60,000

                                                40,000

                                                20,000

                                                    0
                                                         2001   2002   2003   2004   2005   2006   2007   2008   2009   2010   2011

                                                                                     Calendar Year



Source: OIG analysis of statistics from Sample Tracking and Control System (STaCS)

Note: The statistics from 2001 only include July through December. Additionally, 2011
statistics only include January through May.

       At the FBI Laboratory, the Federal DNA Database Unit analyzes the
convicted offender, arrestee, and detainee DNA samples it receives.11
According to the FBI, the Federal DNA Database Unit defines a backlog as
samples accepted but not entered into CODIS. With the increasing number
of DNA sample submissions resulting from legislation, the Federal DNA
Database Unit accumulated a substantial backlog. In December 2009, the
FBI Laboratory reported over 312,000 convicted offender, arrestee, and
detainee DNA samples in need of analysis, review, and entry into CODIS.
However, in September 2010, the FBI announced that it had cleared its
backlog and was able to begin processing accepted DNA samples within 30
days of receipt. FBI officials also stated that after it eliminated its backlog,
monthly submissions that were accepted and in-process constituted the
unit’s monthly workload and were not considered backlogged.

                                                            
                  11
          Prior to July 2009, DNA Unit I conducted forensic DNA casework analysis and the
convicted offender, arrestee, and detainee DNA analysis, known as the Federal Convicted
Offender Program. As a result of a laboratory-wide reorganization, two units were formed -
the Nuclear DNA Unit, which conducts analyses of forensic DNA cases, and the Federal DNA
Database Unit, formerly the Federal Convicted Offender Program, which conducts analysis of
convicted offender, arrestee, and detainee DNA samples.



                                                                                        7

 
 

      The FBI received enhancements in FY 2008 for $12.6 million and in
FY 2009 for $16.2 million for DNA analysis. Additionally, the Federal DNA
Database Unit was authorized to have a funded staffing level of 37 positions
for analyzing convicted offender, arrestee, and detainee DNA samples – a
seven-fold increase from the original staff of 5. These enhancements
allowed the FBI Laboratory to purchase high throughput robotics and
reagents and to hire additional personnel necessary to analyze the large
volume of convicted offender, arrestee, and detainee DNA samples that the
FBI Laboratory received.12

Overview of the FBI’s Federal DNA Database Unit

      The Federal DNA Database Unit, a part of the Biometrics Analysis
Section of the FBI Laboratory, tests DNA samples from convicted federal
offenders, arrestees, and non-U.S. citizen detainees for entry into CODIS.13
Contributors submit DNA samples to the FBI Laboratory primarily in two
forms. Generally, the DNA of convicted offenders is collected using blood
cards, whereas the DNA of arrestees and detainees is collected using buccal
(cheek) swabs.14 As depicted in Exhibit 2, these DNA samples are
accessioned, analyzed, reviewed, and uploaded into CODIS entirely through
the Federal DNA Database Unit and are processed on a first-in, first-out
basis. A more detailed overview of the DNA sample process is described in
Appendix II.




                                                            
              12
          A reagent is a substance used to bring about a chemical reaction during the
processing of DNA samples.
              13
          The FBI Laboratory is accredited through the American Society of Crime
Laboratory Directors Laboratory Accreditation Board (ASCLD/LAB), satisfying the
ASCLD/LAB-International requirements. The Federal DNA Database Unit’s last Quality
Assurance Audit was performed in December 2010 by auditors from the Bureau of Alcohol,
Tobacco, Firearms and Explosives National Laboratory Center and the United States Army
Criminal Investigation Laboratory.
              14
          A blood card is sample that is taken by pricking the finger and applying a few
drops of blood to a card for DNA analysis. A buccal swab sample is taken by brushing a
swab against the inside of a person’s cheek to obtain cells for DNA analysis.


                                                               8

 
 

                Exhibit 2: Process of a DNA Sample through the

                           Federal DNA Database Unit



                                          SUBMISSION
            Contributor submits a blood or buccal sample to the Federal DNA Database Unit


                                         ACCESSIONING
    DNA sample is bar-coded and entered into the unit's laboratory information management system


                                            ANALYSIS
               DNA sample goes through the robotics system to generate a DNA profile


                                             REVIEW
             Examiners use Expert System software to review the results of DNA analysis


                                              CODIS
                                  DNA profile is uploaded to CODIS


Source: The FBI’s Federal DNA Database Unit
Note: If a DNA sample does not produce a profile that meets CODIS or laboratory
standards when it is analyzed, it must go through the analysis process again.


      Until 2006, the FBI mainly received vials of liquid blood for testing,
and it manually extracted the blood onto DNA cards and entered the
convicted offender personal information that accompanies a DNA sample into
the laboratory information management system. FBI Laboratory personnel
performed manual, and labor intensive, DNA analysis on convicted offender,
arrestee, and detainee samples. Although automation existed to process the
DNA samples and arrive at a profile, the robotics were able to process far
fewer samples than the high through put robotics are now able to process.
Further, examiners had to manually review each DNA profile before it was
uploaded to CODIS. Between January 2004 and December 2009, the
Federal DNA Database Unit was only able to upload to CODIS an average of
approximately 1,700 samples per month.

      Over time, the FBI Laboratory worked to streamline its DNA analysis
processes. The FBI started its improvements with the accessioning process,
which is the process of bar-coding a DNA sample and entering the offender,
arrestee, or detainee information into the unit’s laboratory information
management system. The FBI Laboratory developed collection kits that
allow submitting agencies to send in blood or buccal samples on a small card


                                                  9

 
 

rather than in liquid form, and the kits contain a scannable form that
captures information necessary for DNA processing, such as name of the
offender, arrestee, or detainee; date of birth; social security number; and
submitting agency. Currently, the convicted offender, arrestee, and
detainee samples are bar-coded and tracked through every stage of the DNA
process using the Sample Tracking and Control System (STaCS), the Federal
DNA Database Unit’s laboratory information management system.15 Also,
the FBI Laboratory implemented high-speed scanners to scan the forms that
accompany the DNA collection kits, thereby speeding the accessioning
process and also eliminating data entry errors. Biologists and contractors
must still verify that all of the information scanned was complete and
accurate. Shown in Exhibit 3 is the Federal DNA Database Unit’s collection
kit with scannable forms and buccal swabs.

                                                  Exhibit 3: FBI DNA Collection Kit

         Envelope and Scannable Form                                    Buccal Swabs and Instructions




Source: The FBI

      In addition to improving the accessioning process, the FBI also
automated the analyses of convicted offender, arrestee, and detainee DNA
samples. FBI Laboratory personnel now use high-throughput robotics, such
as an automated punch instrument that prepares the DNA sample and other



                                                            
              15
          STaCS is the Federal DNA Database Unit’s internal laboratory information
management system. All of the sections of the FBI Laboratory do not use this information
management system. These issues are discussed in the U.S. Department of Justice Office
of the Inspector General report entitled Review of the Federal Bureau of Investigation
Laboratory’s Forensic DNA Case Backlog, Report 10-39, August 2010, 15.
         


                                                                 10 

 
 

instruments to extract and amplify the DNA sample.16 The DNA samples are
grouped in batches of 850 samples and are moved through the various
stages of DNA analysis to create DNA profiles. A DNA profile is reviewed
twice before it is uploaded into CODIS - a qualified examiner using Expert
System software (a laboratory analysis quality assurance system) conducts
a primary review, and a second examiner conducts a secondary review of
the profile. Using this process, the Federal DNA Database Unit uploaded
over 18,000 DNA profiles to CODIS in May 2011.17

      After convicted offender, arrestee, and detainee profiles are uploaded
into CODIS, the results can be matched with other DNA profiles to help solve
crimes.18 According to FBI officials, since September 2009 additional
personnel, high throughput robotics, and Expert System software have
enabled the Federal DNA Database Unit to process 60,000 DNA samples per
month.

Measuring the Backlog 

      According to the FBI, the Federal DNA Database Unit defines a backlog
as samples accepted but not entered into CODIS.19 In December 2009, the
FBI reported over 312,000 convicted offender, arrestee, and detainee DNA

                                                            
              16
          Extraction is the process of separating DNA from a biological sample (such as
blood or saliva) so the DNA can be analyzed. Amplification is the process of replicating
large amounts of DNA from just a few original strands by “copying” the DNA.
               
              17
           The FBI Laboratory also conducts DNA testing on forensic cases. Forensic DNA
testing is more complex, time consuming, and it does not lend itself to the same level of
automation that can be used for testing convicted offender, arrestee, and detainee samples.
              18
           According to National Institute of Justice Special Report - Making Sense of DNA
Backlogs, 2010 – Myth vs. Reality, from February 2011, DNA analysts generally use CODIS
to search DNA profiles obtained from crime scene evidence against DNA profiles from other
crime scenes and from convicted offenders and arrestees. CODIS generates leads for
investigators when a match is obtained. For example, if the DNA profile from a crime scene
matches a sample taken from another crime scene, the cases may be linked in what is
called a forensic “hit.” Hits give investigating officers valuable information that helps them
focus their investigation appropriately.
              19
            Samples categorized in STaCS as “pending” are not accepted because of
administrative issues such as: missing information, duplicative samples, and rejected
samples. STaCS tracks the pending samples, requests for new samples, and notification
letters sent to contributors informing them of the pending status. As of May 2011, there
were approximately 14,000 samples in this pending category, and these samples are not
eligible for upload to CODIS until a contributor provides additional information or a new
sample. While we recognize these samples are part of the Federal DNA Database Unit’s
overall workload, we did not count these samples because in their present state the samples
are not eligible for analysis.


                                                               11 

 
 

samples in need of analysis, review, and entry into CODIS. However, the
FBI reported that it cleared its backlog in September 2010 and is processing
accepted DNA samples within 30 days of receipt. FBI officials also stated
that after it eliminated its backlog, monthly submissions that were accepted
and in-process constituted the unit’s monthly workload and were not
considered backlogged. We discuss how the FBI achieved these results later
in the report.

      The Federal DNA Database Unit tracks the DNA samples of convicted
offenders, arrestees, and detainees in STaCS, the unit’s laboratory
information management system. STaCS records the date each sample is
received, the date a sample moves from one robotic to another robotic, and
whether the sample needs to go through the DNA process again (referred to
as rework sample). STaCS generates statistics on whether the DNA sample
was a blood card or buccal swab; whether it was an offender, arrestee, or
detainee sample uploaded to CODIS; and where in the DNA analysis process
each DNA sample is located. The FBI Laboratory has captured statistics on
its workflows and DNA samples from the program’s inception in 2001.
However, the Federal DNA Database Unit does not have written policies or
procedures for calculating its backlog or workload statistics.

       The Federal DNA Database Unit identifies its workflow in terms of
operational processes. For example, samples awaiting accessioning are
considered one process, samples awaiting DNA analysis are another process,
and DNA profiles awaiting examiner review for entry into CODIS are a third
process. The Federal DNA Database Unit used this operational process
approach to report statistics on the unit’s workload and the backlog. For
example, in December 2007, the FBI reported 152,457 samples in its
backlog, but this number only captured the DNA samples available for DNA
analysis and did not include the samples ready for examiner review. Our
review of records showed that in December 2007 the Federal DNA Database
Unit’s total backlog of convicted offender, arrestee, and detainee DNA
samples was 211,352.

      From April 2005 through May 2011, the Federal DNA Database Unit
reported its backlog using monthly status reports. Initially, the status
reports were sent to the Federal DNA Database Unit’s Section Chief and were
intended to show the number of DNA samples the unit received each month.
These status updates also reported a backlog which focused on the process
that, at the time, had the most samples. As the backlog grew and gained
public visibility, the Laboratory Director and FBI Director also received the




                                     12 

 
 

status updates containing the operational process statistics.20 While the
numbers reported in the status updates were accurate, the statistics did not
present a complete picture of the backlog until August 2008.

       In December 2009, FBI Laboratory personnel identified a defect in the
STaCS software used to generate the monthly statistics. The defect resulted
in samples that needed to be re-analyzed, and the samples in-process at the
end of the month were not included in the calculation of the total backlog.
To ensure the Federal DNA Database Unit reported a comprehensive backlog
total, the unit calculated a baseline for backlogged samples by summing
monthly statistical information from STaCS, as shown in Exhibit 4.

        Exhibit 4: The FBI’s Method for Calculating Baseline Backlog in 

                               December 2009 


                                                                         Number of
                                                    Sample Process        Samples
       Total samples available for analysis                                     36,071
       Samples awaiting examiner review                                        265,250
       Samples in process                                                       11,058
       Total Backlog as of December 31, 2009                                 312,379
       Source: The Federal DNA Database Unit’s Monthly Statistics from STaCS in 

       December 2009 


      After determining the baseline backlog number, the January 2010
backlog calculation was computed as depicted in Exhibit 5.

    Exhibit 5: The FBI’s Method for Calculating Backlog in January 2010

                                                                         Number of
                                                    Sample Process        Samples
       Number of backlogged samples from December 2009                         312,379
       Number of samples received in January 2010                                9,177
       Number of profiles uploaded into CODIS in January 2010                  (15,055)
       Total Backlog as of January 2010                                      306,501
       Source: The Federal DNA Database Unit’s Monthly Statistics from STaCS in January
       2010

      The FBI Laboratory used the calculation outlined above until August
2010 when it revised the methodology to remove from the reported backlog
the “pending” samples that were duplicates, rejects, or missing information.
The FBI Laboratory removed the pending samples from the backlog
                                                            
              20
          The convicted offender, arrestee, and detainee DNA backlog numbers were
reported to the FBI Director from July 2010 until the backlog number reached zero.


                                                                13 

 
 

calculation since those samples would not be uploaded into CODIS until
missing information was provided or another DNA sample had been
received.

      We attempted to use the FBI’s methodology to verify the backlog of
convicted offender, arrestee, and detainee DNA samples from December
2009 through September 2010. The FBI reported zero backlogged samples
in September 2010, but, we were not able to reconcile to the same numbers
using their method. We noted a small difference of 933 DNA samples
considered in process due to a “wobble” in the STaCS data – which is a
result of DNA samples shifting from one process to the next.

     In order to examine the total backlog of convicted offender, arrestee,
and detainee samples over time, we developed a methodology using the
Federal DNA Database Unit’s statistics from STaCS. We calculated the
workload by adding all of the DNA samples that were available for
accessioning, analysis, and review.21 We applied this method from January
2004 through May 2011. Our method for calculating the FBI Laboratory’s
workload is presented in Exhibit 6.




                                                            
              21
            As discussed above, prior to developing DNA collection kits, the FBI Laboratory
received DNA samples in the form of liquid blood. FBI personnel had to spot the blood onto
cards and archive the DNA sample. This is the process known as archiving, and it is part of
the accessioning process. The FBI still periodically receives liquid blood samples, which are
still bar-coded and entered into STaCS. We also included approximately 40,000 DNA
samples from February 2004 through March 2006 that were outsourced because the FBI
had to review the DNA profiles before they were uploaded to CODIS. The outsourcing
program was not continued because the FBI Laboratory was building the capacity to process
all of the convicted offender, arrestee, and detainee DNA samples in-house.



                                                               14 

  
  

          Exhibit 6: OIG Calculation of the Federal DNA Database Unit’s 

                           Workload in January 2010 


                                                                                                        Number of
           Process                                                  Function                             Samples
                                                                Accessioning
Samples Available for                             DNA samples awaiting bar-coding and entering into
Check-in                                          STaCS                                                        108
Samples Available for                             DNA samples (liquid blood) available for spotting
Archiving                                         onto blood cards                                              14
                                                                  Analysis
                                                  DNA samples available for processing through
Samples Available for                             robotics, but have not yet started the analysis
Processing                                        process                                                    24,580
                                                  DNA samples that are currently being processed by
Samples in Process                                a high-throughput robotic                                   5,185
                                                                   Review
Samples Waiting for                               DNA samples that have a profile which is waiting to
Examiner Review                                   be reviewed and uploaded to CODIS                         279,321
Total Backlog of Accepted DNA Profiles for January 2010                                                   309,208
Source: OIG analysis of the Federal DNA Database Monthly Statistics from STaCS

       Our calculation of the Federal DNA Database Unit’s January 2010
 workload is similar to the unit’s methodology for calculating its backlog as of
 May 2011. However, our calculation includes an additional 2,707 DNA
 samples in process in January 2010. As stated previously, prior to
 September 2010, the FBI’s calculations included all samples that it received
 even though some samples were eventually rejected, whereas our method
 included samples that were accepted and in process but not yet uploaded to
 CODIS.

       We used our methodology to examine the Federal DNA Database Unit’s
 backlog over time. As shown in Exhibit 7, we compared our calculation of
 the backlog to the FBI’s reported backlog in the Federal DNA Database Unit’s
 monthly status updates.22 Both calculations show the unit’s unprocessed

                                                             
               22
             The FBI Laboratory objects to our comparison. It indicated that the number we
 used for the FBI’s reported backlog was incorrect. From the status updates, we used the
 number identified as “backlog;” however, the FBI Laboratory stated that the purpose of the
 status reports was intended to reflect the number of samples received during that month –
 not the total backlog. In the status updates, the FBI listed the limitations of the “backlog”
 number, which consequentially, meant the Federal DNA Database Unit was not reporting on
 its full workload. We consider our comparison appropriate because it gives a complete
 picture of the FBI’s reported workload and incorporates the backlog number reported on the
 status updates.



                                                                      15 

 
 

workload growing steadily from January 2004 through December 2009, and
after December 2009, the FBI Laboratory’s workload decreased significantly
and rapidly through the end of May 2011.

       Exhibit 7: Comparison of OIG Calculated Backlog with the FBI’s 

              Reported Backlog from January 2004 – May 201123



                               350,000


                               300,000
       Number of DNA Samples




                               250,000
                                                                                                                                                                                                                                                        OIG Calculated
                                                                                                                                                                                                                                                        Backlog
                               200,000


                               150,000
                                                                                                                                                                                                                                                        FBI Reported
                                                                                                                                                                                                                                                        Backlog
                               100,000


                                50,000


                                    0
                                                  May-04
                                                           Sep-04


                                                                             May-05
                                                                                      Sep-05


                                                                                                        May-06
                                                                                                                 Sep-06


                                                                                                                                   May-07
                                                                                                                                            Sep-07


                                                                                                                                                              May-08
                                                                                                                                                                       Sep-08


                                                                                                                                                                                         May-09
                                                                                                                                                                                                  Sep-09


                                                                                                                                                                                                                    May-10
                                                                                                                                                                                                                             Sep-10


                                                                                                                                                                                                                                               May-11
                                         Jan-04



                                                                    Jan-05



                                                                                               Jan-06



                                                                                                                          Jan-07



                                                                                                                                                     Jan-08



                                                                                                                                                                                Jan-09



                                                                                                                                                                                                           Jan-10



                                                                                                                                                                                                                                      Jan-11



    Source: OIG calculation of DNA samples in process reported in STaCS and the FBI
    reported backlog totals from the Federal Convicted Offender Program status updates


       While the FBI reported it had zero backlogged samples from
September 2010 through May 2011, the Federal DNA Database Unit still had
DNA samples that were being analyzed and reviewed. We reviewed STaCS
statistics from May 2011 to determine how many convicted offender,
arrestee, and detainee DNA samples were unprocessed at the FBI
Laboratory.

      As of May 30, 2011, there were 13,704 accepted DNA samples that
were in process at the Federal DNA Database Unit. This means that there
were 13,704 samples available for accessioning, analysis, review, or already
in process. May 2011 statistics are presented in Exhibit 8. Because the FBI
has a current capacity to analyze 60,000 DNA samples per month, it has the

                                                            
                               23
          The FBI did not begin to report a “backlog” number until April 2005 in its status
updates of the Federal Convicted Offender Program.



                                                                                                                                                        16 

 
 

capability to adequately manage its monthly workload of nearly 14,000 DNA
samples.24

         Exhibit 8: OIG Calculation of the Federal DNA Database Unit’s 

                            Workload in May 2011 


                                                                                                         Number of
               Process                                                Function                            Samples
                                                                 Accessioning
Samples Available for                                  DNA samples awaiting bar-coding and entering
Check-in                                               into STaCS                                             6,518
Samples Available for                                  DNA samples (liquid blood) available for
Archiving                                              spotting onto blood cards                                 18
                                                                     Analysis
                                                       DNA samples available for processing through
Samples Available for                                  robotics, but have not yet started the analysis
Processing                                             process                                                4,270
                                                       DNA samples that are currently being
Samples in Process                                     processed by a high-throughput robotic                 2,104
                                                                     Review
Samples Waiting for                                    DNA samples that have a profile which is
Examiner Review                                        waiting to be reviewed and uploaded to CODIS             794
Total Workload for May 2011                                                                                 13,704
Source: OIG analysis of the Federal DNA Database Unit’s Monthly Statistics from STaCS in
        May 2011

      The FBI has achieved a significant accomplishment in reducing the
convicted offender, arrestee, and detainee DNA backlog to a manageable
monthly workload. However, we are concerned that the Federal DNA
Database Unit does not have defined policies and procedures for calculating
and reporting its DNA backlog or workload, and this lack of policies and
procedures could potentially affect the accuracy of its reporting in the future.
Accurate and consistent reporting is important because it gives decision
makers the ability to identify problems in comparison with past reports and
to address those problems. Using various methods to calculate the workload
may result in under-reporting and over-reporting problems. Further, the
“wobble” in the statistics needs to be addressed to make certain the
reported information is verifiable and accurate. We understand that the
process in the Federal DNA Database Unit is constantly undergoing changes
that reveal new methods to calculate statistics. Therefore, we recommend
                                                            
              24
           According to the FBI, the Federal DNA Database Unit's processing capability is
currently 60,000 specimens per month as of May 2011, with the planned validation and
implementation of a 90,000 specimens per month processing capability. The increased
capacity is planned to coincide with an increased submission rate within the next 12 to 24
months.


                                                                         17 

 
 

the FBI develop and implement policies and procedures that document the
methodology used to report its workload statistics and backlog calculations.

Defining Detainees for Inclusion in CODIS

      Since May 2010, the FBI has received an average of almost 16,000
convicted offender, arrestee, and detainee samples per month. According to
the FBI, these samples are primarily sent from the Bureau of Prisons, Court
Services and Offender Supervision Agency, and Probation Officers.
Additionally, the DHS has contributed detainee DNA samples.25

       The DNA Fingerprint Act of 2005 required that DNA samples be
collected from non-U.S. citizens detained by the United States.26 In order to
determine the number of anticipated DNA samples, FBI Laboratory personnel
visited two DHS sites to estimate the number of samples the Federal DNA
Database Unit would need to process. Based on these visits, the FBI
estimated that it would need to process up to 1 million DNA samples per
year, primarily from detainees. However, the FBI is not currently receiving
this volume of detainee DNA samples.




                                                            
              25
          Currently, the Federal DNA Database Unit tracks contributing agencies for
convicted offender samples, but does not track which agencies submit arrestee and detainee
DNA samples. The unit has submitted a modification to the STaCS contractor to add
tracking contributors to STaCS and anticipates receiving the requested modification later in
2011.
              26
                     42 U.S.C. § 13701 note (2006).


                                                               18 

 
 

      The DNA Sample Collection, Analysis, and Indexing regulation codified
at 28 C.F.R. § 28.12 (2008) outlines the DNA-sample collection requirements
for the DHS in relation to non-arrestees.27 It states that the Secretary of
Homeland Security, in consultation with the Attorney General, may
determine that the collection of DNA samples is not feasible because of
operational exigencies or resource limitations.

       We contacted the FBI to determine how the DHS defines “detainee”;
however, the FBI said apart from the DNA Fingerprint Act of 2005 which
legally establishes the collection of arrestee and detainee DNA, it did not
know the criteria the DHS uses to determine when to collect detainee DNA.
The Federal DNA Database Unit said that it was under the impression that
the DOJ and the DHS had communicated an agreement regarding detainee
DNA collection. We contacted the Office of the Deputy Attorney General,
and an official there said the office was not aware of policies regarding
detainee DNA collection between the DOJ and the DHS. We also contacted
the DHS Policy Office to discuss DHS criteria regarding DNA collection from
detainees; however, as of July 19, 2011, we did not receive a response to
our inquiry.

      Congress has directed that DNA from non-U.S. citizens detained under
the authority of the United States should be collected. However, the FBI is
not currently receiving the estimated volume of detainee DNA samples and
does not have clear criteria regarding which detainee DNA samples the DHS
submits to the FBI Laboratory. We recommend that the FBI coordinate with
the DHS to determine the criteria used to collect and submit detainee DNA
samples, and if appropriate, revise estimates for monthly sample receipt so
that the FBI Laboratory can plan for any influx of detainee DNA samples.

Efforts to Reduce the Backlog 

        Our review found that the FBI Laboratory has used various strategies
to address the convicted offender, arrestee, and detainee DNA backlog,
including creating a backlog reduction strategy, hiring additional personnel,
utilizing high throughput robotics and Expert System software, and
reconfiguring laboratory space.

Backlog Reduction Strategy

       In July 2007, the FBI’s Office of Integrity and Compliance (OIC)
identified CODIS, which includes the convicted offender, arrestee, and
detainee DNA backlog, as a risk to the FBI because of its potential
                                                            
              27
                     28 C.F.R. § 28.12 (2008).


                                                               19 

 
 

noncompliance with the DNA Fingerprint Act of 2005 and the Adam Walsh
Child Protection Act of 2006.

      The FBI OIC’s risk assessment report estimated that to fulfill the
federal legislation noted above, the FBI would need $25.2 million in funding,
36 funded positions, and additional operational and administrative space.28
The estimated non-personnel costs are broken down in Exhibit 9.

                                      Exhibit 9: Estimated Backlog Elimination Costs


                                                                               Projected Costs
                                                                 DNA           Adam Walsh Child
                                                           Fingerprint Act       Protection and
      Identified Need                                          of 2005         Safety Act of 2006      Total
    Supplies                                                   $18,100,000             $3,150,000    $21,250,000
    Equipment                                                    1,220,000               800,000       2,020,000
    Services/ Maintenance                                         1,680,000              250,000       1,930,000
    Total                                                      $21,000,000            $4,200,000    $25,200,000
Source: The Office of Integrity and Compliance’s Compliance Risk Analysis and
Recommendation Report from September 17, 2007

      In 2007, the FBI created a mitigation plan to reduce the convicted
offender, arrestee, and detainee DNA backlog. In January 2008, the FBI’s
Deputy Director approved this plan, which included steps to address each of
the backlogged processes in accessioning, analysis, and review. The FBI’s
Science and Technology Branch Executive Management Committee tracked
on a quarterly basis the progress toward accomplishing the plan’s goals.
According to the FBI, the mitigation plan was completed on April 13, 2011.
The FBI OIC and the Inspection Division said now that the mitigation plan
has been completed, it plans to develop an audit program to determine
whether the FBI remains at risk of noncompliance with the DNA Fingerprint
Act of 2005 and the Adam Walsh Child Protection Act of 2006.

      In addition, in February 2008, the Federal DNA Database Unit, in
conjunction with the FBI OIC, developed a Backlog Elimination Project Plan.
The goal of this project was to eliminate the DNA backlog within 24 months,
and the objectives were to: (1) hire and train FBI employees and
contractors to process the incoming samples and to eliminate the
accessioning backlog; (2) acquire the necessary equipment, services, and
supplies to process the samples; and (3) modify the available work areas to
accommodate personnel and equipment.
                                                            
              28
                     42 U.S.C. § 13701 note (2006) and 42 U.S.C. § 16901 note (2006).


                                                                        20 

 
 

      In June 2009, the FBI requested a team of independent experts to
review the Backlog Elimination Project Plan and to provide feedback for
areas of improvement.29 According to the report, the backlog reduction plan
was "appropriate and timely, but very ambitious.” The report described
concerns about long-term space and storage facilities, personnel, and
management’s span of control. The FBI implemented several of the report’s
recommendations, including keeping a three-month supply of reagents on
hand and providing more workspace.

       Both the OIC mitigation plan and the Backlog Elimination Project Plan
gave the FBI tangible goals and timelines to measure achievement in
eliminating the convicted offender, arrestee, and detainee DNA backlog.
After implementing the Backlog Elimination Project Plan, the Federal DNA
Database Unit eliminated the backlog in 33 months, effectively meeting its
goal.

Personnel

       As part of the DNA Backlog Elimination Act of 2000, the FBI
established the Federal Convicted Offender Program that was funded to
handle approximately 5,000 samples per year. In 2001, this program had
only 5 personnel assigned to it, and it received approximately 3,800
samples. After the enactment of the Justice for All Act of 2004, the number
of samples the program received grew to about 96,000 per year between
2005 through 2010. However, staffing levels did not substantially increase
until 2006. According to the FBI, prior to 2006, it shifted personnel from
casework DNA analysis to convicted offender DNA analysis in order to reduce
the convicted offender, arrestee, and detainee backlog. However, because
the two programs were comingled in one unit until July 2009, the total
impact of shifting personnel between the two functions is difficult to assess,
and records of shifting personnel are not available.30




                                                            
              29
          The independent assessment team consisted of four state and international law
enforcement and forensic science subject matter experts.
 
       30
          We cannot quantify the number or timing of the personnel shift because the unit
did not have time reports that identified the specific tasks the personnel worked on and no
formal transfer notifications were made because the personnel were within the same unit.


                                                               21 

 
 

       In FY 2008, the FBI Laboratory received a funding enhancement to the
program’s baseline operations; however, the FBI Laboratory did not receive
an increased funded staffing level even though it had requested one.
However, in FY 2009 the FBI Laboratory received an enhancement of 26
positions for DNA analysis. This enhancement brought the Federal DNA
Database Unit’s funded staffing level to 37. Currently, the Federal DNA
Database Unit has 33 personnel on-board and 11 contractors assisting with
accessioning and laboratory information management system support, as
shown in Exhibit 10.

    Exhibit 10: Estimates of Contractors and Personnel On-board from
                             2004 – May 2011

                                                   Biologists/
    Calendar                      Support           Technical
      Year       Contractors     Personnel         Specialists   Examiners   Total
      2004            -              -                  1            5         6
      2005            -              -                  3            5         8
      2006            -              -                  5            5        10
      2007            5              -                  7            5        17
      2008            7              5                  7            4        23
      2009           13              5                 15            7        40
      2010            6              5                 18           12        41
      2011           11              6                 17           10        44
    Source: The Federal DNA Database Unit


      According to the FBI Laboratory Director, both the increase in
personnel and the implementation of high throughput robotics reduced the
backlog of convicted offender, arrestee, and detainee samples. However,
the FBI Laboratory Director believed the true bottleneck to DNA processing
was related to personnel concerns. On average, it takes between 18 and
24 months to train a DNA scientist for their work at the FBI Laboratory. The
FBI Laboratory Director said he believed that the lag time to train personnel,
combined with the lack of automation, contributed to the convicted offender,
arrestee, and detainee DNA backlog.

      Once the FBI OIC deemed CODIS a risk and the FBI developed a
mitigation plan, one of the first things the FBI did was to hire contractors to
assist with accessioning DNA samples in fall 2007. Not only did the
contractors augment the Federal DNA Database Unit’s staff, they also freed




                                            22 

 
 

scientists to perform DNA sample analysis and review. According to the FBI,
by April 2008 it no longer had a backlog in the accessioning process.31

      According to the FBI, in order to operate each robotics “line,” it needs
three scientists.32 Each robotics line can generate 30,000 DNA profiles per
month. In order for the Federal DNA Database Unit to be able to process
90,000 samples per month, the unit requires 9 scientists to run 3 lines.
Additionally, the unit needs examiners to operate the Expert System
software, conduct reviews of DNA profiles, validate technology, and upload
the profiles to CODIS.

      In addition to hiring and training personnel, the FBI used alternative
work schedules and weekend schedules to ensure the most productive use of
personnel time and equipment. According to the FBI, hiring additional
personnel and training them was crucial to reducing the backlog of convicted
offender, arrestee, and detainee DNA samples.

Robotics

      From FY 2004 through May 2011, the FBI spent approximately
$73 million on equipment, Expert Systems software, equipment maintenance
contracts, DNA collection kits, and reagents necessary to complete DNA
testing. According to the FBI, these robotics, maintenance contracts, and
supplies are necessary for the FBI Laboratory to maintain its capacity to
analyze 60,000 DNA samples per month. The cost of automation from
FY 2004 through May 2011 is presented in Exhibit 11.




                                                            
              31
        Additionally, to assist with administrative functions in the unit, the FBI hired
management and program analysts.
 
     32
        A “line” consists of three robotics that are necessary to generate DNA profiles.


                                                               23 

 
 

Exhibit 11: Total Automation-Related Expenditures FY 2004 through
                            May 2011


       $25,000,000

       $20,000,000

       $15,000,000

       $10,000,000

         $5,000,000

                $-
                      2004   2005   2006    2007   2008    2009   2010   2011
                                             Fiscal Year


Source: The Federal DNA Database Unit

       According to the FBI, from FY 2004 to May 2011 the Federal DNA
Database Unit spent approximately $38 million on reagents necessary for
operating the robotics. Additionally, the FBI spent over $15 million on DNA
collection kits, which it provides free of charge to requesting agencies that
collect DNA from convicted offenders, arrestees, and detainees. As shown in
Exhibit 12, these two expenses comprised approximately 74 percent of the
Federal DNA Database Unit’s expenditures from FY 2004 to May 2011. The
remaining 26 percent was expended on equipment (robotics, high
throughput scanners, genetic analyzers), Expert System software, STaCS,
and improving technologies, such as radio frequency identification tags.




                                           24 

 
 

     Exhibit 12: Categorical Breakout of Cost of Automation from 

                     FY 2004 through May 2011 



                                       STaCS
                                                             Expert System
                                     $3,727,420
                                                               Software
                                                              $1,326,300

                                  Equipment
                                                                   Technology &
                                  $7,930,073
                                                                  Improvements
                                                                    $6,162,014




                         Collection Kits
                          $15,487,127



                                                Reagents
                                               $38,369,355




Source: The Federal DNA Database Unit

       As seen in Exhibit 13 below, since January 2004, the process that was
experiencing the greatest number of backlogged samples varied over time.
As new equipment or processes were implemented, the backlog shifted to
the next process. For example, from March 2005 through October 2008, the
Federal DNA Database Unit identified the greatest backlog in samples
available for processing. However, after high throughput robotics were
installed to process a large volume of DNA samples at one time, the backlog
shifted to DNA profiles waiting for data review and CODIS upload.




                                           25 

 
 

    Exhibit 13: DNA Samples Not Uploaded to CODIS by Process from
                      January 2004 – May 2011



    Jan-11
                                                                             Samples Available for
     Jul-10
                                                                             Check In
    Jan-10
     Jul-09                                                                  Samples Available for
    Jan-09                                                                   Archiving
     Jul-08
    Jan-08                                                                   Samples Available for
                                                                             Processing
     Jul-07
    Jan-07                                                                   Samples Waiting for
     Jul-06                                                                  Examiner Review
    Jan-06
     Jul-05                                                                  Samples Outsourced
    Jan-05
     Jul-04
                                                                             Samples In Process
    Jan-04
              0   50,000   100,000 150,000 200,000 250,000 300,000 350,000

                               Number of DNA Samples




Source: OIG analysis of DNA processes captured in STaCS

Note: Outsourced samples are DNA samples that were sent to an outside laboratory for
DNA analysis. The FBI Laboratory reviewed the profile before it was uploaded to CODIS. In
process samples refer to samples that were in the DNA analysis process.

       To improve accessioning time, the FBI Laboratory developed collection
kits for blood cards and buccal swabs. Until 2006, the FBI primarily received
blood in liquid vials, which biologists had to prepare for DNA analysis by
hand. Although the FBI periodically receives liquid blood samples, it
primarily receives the DNA collection kits containing dried blood or buccal
submissions. These kits are opened, bar coded, and sent for analysis at a
much faster rate. Additionally, the Federal DNA Database Unit uses bar
coding to track DNA samples, and it acquired high speed scanners to input
offender, arrestee, and detainee information into STaCS. Prior to the
scanners, the contractors manually entered the data into STaCS.

      To address the DNA analysis backlog, the Federal DNA Database Unit
purchased and implemented high throughput robotics - equipment necessary
to generate data with minimal manual operation - that processes DNA
samples in batches of 850 samples at one time. Prior to acquiring the high
throughput robotics, the Federal DNA Database Unit analyzed fewer DNA
samples because biologists manually placed DNA samples onto the robotics.
The robotics were not equipped to handle large quantities of DNA samples.


                                                26 

 
 

Currently, the robotics at the Federal DNA Database Unit punch blood or
buccal cards in 30 seconds, and the samples are deposited onto plates
containing 85 samples. The robotics analyze these plates in groups of 10,
allowing 850 DNA samples to be analyzed by the robotics at one time. Each
robotic takes approximately 2.5 hours to complete this processing. Pictured
in Exhibit 14 are the instruments used to analyze DNA: the semi-automated
sample preparation (“punch”) robotic, the sample processing robotic, and
the high-throughput genetic analyzers. 

    Exhibit 14: High-Throughput Robotics Used By the Federal DNA 

                            Database Unit 


      Punch Robotic            Sample Processing         Genetic Analyzer




Source: FBI Laboratory

      To improve the review process, the FBI acquired Expert System
software to review high volumes of DNA samples. Prior to the use of Expert
System software, examiners performed a review of each DNA profile and a
second examiner conducted a secondary review. The Federal DNA Database
Unit was only able to review and upload to CODIS a few hundred DNA
samples in a month. When it began using Expert System software, the FBI
Laboratory saw a four-fold reduction in review time as compared to manual
review. One examiner using Expert System software can conduct the
primary review of 85 DNA samples in 25 minutes. The examiner conducting
a secondary review is able to analyze the same 85 DNA samples in 10
minutes.

       According to the FBI, automation efforts decreased the amount of time
it takes to process convicted offender, arrestee, and detainee DNA samples,
as illustrated in Exhibit 15.




                                    27 

 
 

             Exhibit 15: Comparison of Previous Methods of DNA

                       Processing with Current Methods 


                                                          One Robotic Line and
     Category of Comparison           Prior method          Expert Software
    Samples processed per day                510                   1,700
    Samples processed per month             8,000                 30,000
    Number of plates processed per
    day (1 plate = 85 Samples)                6                     20
                                                           Examiner assisted with
                                     Manual review, 100   Expert System software,
    Sample Review                     minutes per plate     25 minutes per plate
Source: FBI presentation dated June 2009

      According to the FBI, the FBI Laboratory has spent $6.1 million to
develop and improve technology to further streamline the Federal DNA
Database Unit’s workflow processes. For example, the FBI is developing
radio frequency identification tags to be able to more quickly locate DNA
samples for retesting. Also, the FBI is working with other law enforcement
agencies to develop an electronic data capture system, which should help
improve efficiencies in data collection and limit the number of DNA samples
that may be rejected because of administrative issues, such as samples that
are missing information. This technology would also enable law enforcement
personnel to electronically submit the forms that accompany DNA samples.
According to FBI officials, this new technology may minimize errors such as
missing names or duplicative samples, and it will reduce the time the FBI
Laboratory devotes to administrative functions.

Laboratory Space

      Both the FBI OIC mitigation plan and an independent assessment of
the Backlog Elimination Project Plan designated space for the Federal DNA
Database Unit as one of the top priority areas for the FBI Laboratory. In fall
2008, the FBI commissioned an architectural study to examine the space in
the FBI Laboratory and design a laboratory layout to maximize efficiency.
According to the architectural firm’s report, physical changes to the Federal
DNA Database Unit would cost approximately $2.7 million.

     The Federal DNA Database Unit is spread across three floors at the FBI
Laboratory and shares some laboratory space with the Nuclear DNA Unit.
The accessioning room and DNA sample storage are located in the
basement, with the samples boxed and stacked almost to the ceiling.




                                           28 

 
 

Exhibit 16 depicts the storage space at the FBI Laboratory as of August
2011.33

Exhibit 16: Pictures of the Federal DNA Database Unit Storage Space
               at the FBI Laboratory as of August 2011




Source: The Federal DNA Database Unit as of August 2011

       In April 2011, the Federal DNA Database Unit was able to use other
space in the FBI Laboratory to use as the accessioning room and for offices.
In late May 2011, the Federal DNA Database Unit moved into this space, and
according to the FBI Laboratory, was able to nearly double the number of
accessioning workstations from 10 to 18. This move provided the Federal
DNA Database Unit with even more space than the architectural firm’s study
had recommended. The FBI Laboratory has also identified other office space
that will be available for the Federal DNA Database Unit within the 2011
calendar year. According to FBI personnel, the Federal DNA Database Unit
has $400,000 appropriated for these moves, and has taken timely steps to
identify new space for the Federal DNA Database Unit to further maximize
efficiency.




                                                            
              33
          Prior to July 2009, the Washington, D.C. Metropolitan Police Department was
located at the FBI Laboratory in Quantico, Virginia. However, to make additional space for
the Federal DNA Database Unit’s robotics, the FBI Laboratory relocated the
Washington, D.C. Metropolitan Police Department to an offsite location.


                                                               29 

 
 

       In addition, because the FBI must maintain DNA samples indefinitely
because of the need to re-analyze the sample when there is a CODIS match,
the FBI Laboratory is seeking high density storage solutions. As of May
2011, the FBI has over 712,000 DNA samples to store, and it anticipates
needing to store a total of 1 million DNA samples by the end of 2011. As
contributors continue to submit DNA samples to the FBI for analysis and
entry into CODIS, the FBI Laboratory will need to provide storage space for
those submissions as well. As of May 2011, the Federal DNA Database Unit
expected that the vendor bid process and selection will be made during FY
2011, with delivery and installation of the high density storage units during
the first quarter of FY 2012. According to the FBI Laboratory, it is also in the
early stages of examining long term storage options at an offsite location.
However, an independent review of the Backlog Elimination Project Plan
characterized this initiative as a risk, noting that offsite storage would add
complexity to storage and retrieval protocols, and increase risk regarding the
maintenance of samples.

      In sum, the FBI has several plans for DNA storage options but these
plans have not yet been implemented. With the continuing increase in the
number of DNA samples received and in need of storage, we are concerned
that the FBI has not yet implemented a long term solution for storing its
DNA samples. Therefore, we recommend that the FBI finalize a long-term
plan for DNA sample storage space.

Conclusion

       Through backlog reduction plans, hiring additional personnel,
implementing high throughput robotics and Expert System software, and
creating additional space for the Federal DNA Database Unit, the FBI has
significantly improved its efficiency in processing convicted offender,
arrestee, and detainee DNA samples. These improvements enabled the FBI
to effectively eliminate its convicted offender, arrestee, and detainee DNA
samples backlog. The FBI Laboratory now has an average processing rate
(from sample receipt to upload to CODIS) of 30 days for accepted DNA
samples.

       However, we found the FBI can improve the accuracy and consistency
of its workload statistics to more comprehensively inform decisions regarding
management concerns. In addition, the FBI needs to ensure that it has a
clear understanding of DHS policy for collecting DNA samples from
detainees, because a significant change in policy could greatly affect the
FBI's ability to keep pace with the DNA samples it receives for analysis.
Finally, space and storage capacity at the FBI Laboratory is a significant




                                      30 

 
 

concern and the FBI must expediently identify a long-term storage solution
for its DNA samples.

Recommendations

        We recommend that the FBI:

    1. Develop and implement policies and procedures that document the
       methodology used to report its workload statistics and backlog
       calculations.

    2. Coordinate with the DHS to determine the criteria used to collect and
       submit detainee DNA samples, and if appropriate, revise estimates for
       monthly sample receipt so the FBI Laboratory can plan for any influx
       of detainee DNA samples.

    3. Finalize a long-term plan for DNA sample storage space.
     

                                




                                     31 

 
 

               STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the Federal Bureau of
Investigation’s (FBI) internal controls was not made for the purpose of
providing assurance on its internal control structure as a whole. FBI
management is responsible for the establishment and maintenance of
internal controls.

       Through our audit testing, we did not identify any deficiencies in the
FBI’s internal controls that are significant within the context of the audit
objectives and based upon the audit work performed that we believe would
affect the FBI’s ability to effectively and efficiently operate, to correctly state
financial and performance information, and to ensure compliance with laws,
regulations, and other applicable requirements. Because the Federal DNA
Database Unit does not have defined policies and procedures for calculating
and reporting its DNA backlog or workload, the backlog statistics were
reported inconsistently.

       Because we are not expressing an opinion on the FBI’s internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                        32 

 
 

                   STATEMENT ON COMPLIANCE

                  WITH LAWS AND REGULATIONS 

 

      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
FBI’s management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. FBI’s management is responsible for ensuring compliance with
federal laws and regulations applicable to the Department of Justice. In
planning our audit, we identified the following laws and regulations that
concerned the operations of the auditee and that were significant within the
context of the audit objectives:

       DNA Analysis Backlog Elimination Act of 2000;
       USA PATRIOT Act of 2001, Section 503 (Public Law 107-56);
       Justice For All Act of 2004;
       DNA Fingerprint Act of 2005;
       Adam Walsh Child Protection Act of 2006;
       28 C.F.R. Part 28.12 (December 10, 2008);
       United States Code, Title 42, Chapter 136, Subchapter IX, Part A –
        DNA Identification.

      Our audit included examining, on a test basis, FBI’s compliance with
the aforementioned laws and regulations that could have a material effect on
FBI’s operations, through interviewing auditee personnel, analyzing data,
assessing internal control procedures, and examining procedural practices.

     Nothing came to our attention that caused us to believe that the FBI
was not in compliance with the aforementioned laws and regulations.




                                     33 

 


                                                             APPENDIX I
 
           OBJECTIVES, SCOPE, AND METHODOLOGY
 

Objectives

      We audited the FBI’s convicted offender, arrestee, and detainee DNA
backlog. The objectives of this audit were to determine the number of
convicted offender, arrestee, and detainee DNA samples that remained
unprocessed at the FBI Laboratory, and to evaluate the FBI’s efforts to
reduce and eliminate the convicted offender, arrestee, and detainee DNA
backlog.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

     We reviewed historical performance data, internal and external
assessments, and documentation for planned changes to for streamlining the
DNA database process. The audit generally covered, but was not limited to,
FBI DNA statistics from January 2004 through May 2011.

      Audit work was conducted at both FBI headquarters and the FBI
Laboratory located in Quantico, Virginia. We interviewed personnel from the
Finance Division, and Resource Planning Office, and the Office of Integrity
and Compliance at FBI headquarters. We also interviewed Laboratory
Division personnel involved with the convicted offender, arrestee, and
detainee DNA program.

       In order to determine the number of convicted offender, arrestee, and
detainee DNA samples that remained unprocessed at the FBI Laboratory, we
discussed with laboratory personnel the methodology they used for
calculating their workload and attempted to replicate the FBI’s method. We
relied on computer-generated data from the Sample Tracking and Control
System (STaCS), the Federal DNA Database Unit’s laboratory information
management system. Although we did not assess the information system’s
control or the reliability of statistics from STaCS, we do not believe our

                                     34 

 


reliance on this information significantly affects the findings and
recommendations offered by this report.

      We were not able to replicate the FBI’s calculations, so using statistics
from STaCS, we developed a methodology for calculating the Federal DNA
Database Unit’s workload from January 2004 through May 2011. We added
the following numbers to calculate the unit’s backlog and workload:
(1) samples available for check-in; (2) samples available for archiving;
(3) samples available for processing; (4) samples in process; (5) samples
outsourced; and, (6) samples waiting for data analysis.

      We compared our calculation of the Federal DNA Database Unit’s
workload to the FBI program status updates and FBI “scorecards” from April
2005 through May 2011. We used the number that was reported as
“backlog” to determine the FBI’s reported backlog number.

       Additionally, to understand the Department of Homeland Security’s
DNA collection policy and how it may impact the FBI Federal DNA Database
Unit’s workload, we interviewed personnel from the United States Secret
Service. We attempted to interview persons from the Department of
Homeland Security’s Policy Division; however, we did not receive a response
to our inquiry.

      In order to evaluate the FBI’s efforts to reduce and eliminate the
convicted offender, arrestee, and detainee DNA backlog, we reviewed the
Office of Integrity and Compliance CODIS risk analysis and mitigation plan
and the Federal DNA Database Unit’s Backlog Elimination Project Plan from
February 2008. In addition, we reviewed the independent assessment of the
Federal DNA Database Unit’s February 2008 Backlog Elimination Project
Plan. We also examined the unit’s most recent Quality Assurance Audit,
conducted in December 2010 by auditors from the Bureau of Alcohol,
Tobacco, Firearms and Explosives National Laboratory Center and the United
States Army Criminal Investigation Laboratory.

      Part of the backlog strategy was to increase personnel, pursue
automation efforts, and identify additional space. Therefore we reviewed the
Federal DNA Database Unit’s personnel and contractor history from 2001
through 2011. Since the FBI did not maintain detailed personnel records for
the DNA Unit I, which included casework DNA analysis and convicted
offender, arrestee, and detainee DNA analysis until July 2009; we could not
comment on the shift in personnel between casework and the convicted
offender, arrestee, and detainee program to reduce the backlog.



                                       35 

 


       To evaluate the impact of automation on the reduction of the FBI’s
backlog, we examined the Federal DNA Database Unit’s automation costs
from FY 2004 through FY 2011, reviewed FBI Laboratory presentations on
the increased efficiencies attributed to the automation efforts, and discussed
with FBI Laboratory personnel the impact the robotics and other automation
efforts had on the FBI Laboratory processes. We also reviewed the Office of
Integrity and Compliance Risk Mitigation Plan for implementing automation
efforts in the Federal DNA Database Unit.

       Additionally, we toured the FBI Laboratory and the Federal DNA
Database Unit. We looked at the current space for the Federal DNA
Database Unit, future space planned for the unit, reviewed the architectural
firm’s laboratory space study and schematics plan of the FBI Laboratory, and
discussed DNA sample storage with FBI Laboratory personnel.




                                      36 

  


                                                                                                                                              APPENDIX II

     OVERVIEW OF DNA ANALYSIS PROCESS AT THE FEDERAL DNA DATABASE UNIT



                              PROCESS                                                   EXPLANATION

                                                  Process In which the collection kits containing DNA samples are opeed and verified.
                                                  Included In each kit is a DNA sample, fingerprints, and a form conta ining biographical
                            A cc essioni ng




                                                                           .
                                                  Information of the Individual. This Information Is entered Into STaCS. Each DNA sample
                                                  ff,;:elves a unique 10, and STaCS tracks the flow of the sample, work asslgrvnents, and
                                                  captures metrics.




                                                                           .
                                                  High throughput robotics pierce the DNA sample cards lik e a sewing machine creatlng a tiny
                         Punching of samples      drcle or punch. The pUllCh Is inserted Into a plate of 85 samples each assigned to a welt.
                                                  This plate Is bar-coded and moves forward In the process.



                              Extr.tCtlo n


                                                                           .
                                                  Robotics are used to dispense chemicals (reagents) that aid in the separatkm of DNA in the
                                                  sample. A very thin layer of wax seals the plate so the sample does not evaporate.



                            A mplification


                                                                           .
                                                  DNA amplification Is the process of replicating large amounts of DNA from just
                                                  strands using a thermal cycler robotic to ~ copy~ the DNA.
                                                                                                                                   a   few origina l




                           Electropho resis


                                                                           .
                                                  Anot her robot dilutes the sample and applies an electrostatk charge to separate the DNA.
                                                  This machloe detects and measures the DNA fragments in a DNA sample for further analysis.



                                                  Informat ion generated from the electrophoresis process Is loaded into Expert System
                                                  software. This software serves as a semi-automated review system that assists qualified




                                                                           .
                          D ata A nal ysi s and
                                                  examiners In the review process by alerting them to the samples that require more thorough
                            Interpreta ti o n
                                                  manual review. A qualified examiner reviews the Expert System software analysis and a
                                                  second q ualIFied examloer confirms .



                                                  Once samples have been reviewed, a qualified examiner creates a compuler file and the DNA
                          U pload In to COOlS     profile Is uploaded to COOlS. A COOl S biologist runs a weekly search of COOlS for potential
                                                  matches to the other indexes in COOlS.




 Source: The FBI Federal DNA Database Unit


                                                                      37 

                                                                                          APPENDIX III

THE FEDERAL BUREAU OF INVESTIGATION’S RESPONSE TO 

    OFFICE OF INSPECTOR GENERAL’S AUDIT REPORT 

                 RECOMMENDATION 


                                                                      U.S. Department of Justice




                                                                       Federal Bureau of Investigation

                                                                       Washington, D. C. 20535-0001

                                                                       September 1, 2011


Cynthia A. Schnedar
Acting Inspector General
Office of the Inspector General
U.S. Department of Justice
Suite 4706
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530


Dear Ms. Schnedar:

         The Federal Bureau of Investigation (FBI) appreciates the opportunity to review and respond to your draft
report entitled, "Audit of the Federal Bureau of Investigation's Convicted Offender, Arrestee, and Detainee DNA
Backlog" (hereinafter "Report").

          We are pleased your Report recognizes the FBI has effectively eliminated its backlog of convicted offender,
arrestee, and detainee DNA samples. As noted, the FBI has achieved a "significant accomplishment" in reducing this
backlog to a manageable monthly workload. The FBI remains committed to ensuring accepted DNA samples are
promptly processed and submitted into the Combined DNA Index System (CODIS).

         In conclusion, based upon a review of the Report, the FBI concurs with the three recommendations directed
to the FBI. The FBI appreciates the professionalism exhibited by your staff to complete this Report. Enclosed herein
are the FBI's responses to the recommendations. Please feel free to contact me at 202-324-2903 should you have any
questions or need further information.

                                                                       Sincerely yours,



                                                                       Jennifer Smith Love
                                                                       Acting Assistant Director
                                                                       Inspection Division

Enclosure



                                                        38 

 
 




                     The Federal Bureau of Investigation's (FBI) Response to the 

                         Office of the Inspector General's Audit of the FBI's 

                      Convicted Offender, Arrestee, and Detainee DNA Backlog 



Recommendation #1: Develop and implement policies and procedures that document the methodology
used to report its workload statistics and backlog calculations.

FBI Response to Recommendation #1: Concur - The policies and procedures associated with the
workload statistics, such as average turnaround time calculation, currently reported through the unit's
laboratory information management system (LIMS), were formally documented through issuance of an
Electronic Communication (EC) on June 15, 2011. Modifications to the LIMS for further expanding and
customizing the reporting functionality, as defined by formal requirements documents generated by the
unit, is proceeding with completion projected in FY2012. Once finalized, the unit will revise the
procedures issued in June 2011 to memorialize these new requirements as standardized methodologies for
reporting workload statistics and production metrics.

Recommendation #2: Coordinate with the DHS to determine the criteria used to collect and submit
detainee DNA samples, and if appropriate, revise estimates for monthly sample receipt so the FBI
Laboratory can plan for any influx of detainee DNA samples.

FBI Response to Recommendation #2: Concur - As the Department of Homeland Security
(DHS) implements DNA sample collection as mandated by the DNA Fingerprint Act of2005 and other
applicable DNA legislation, the FBI Laboratory will continue to remain in communication with those
components of DHS that are likely to submit significant numbers of samples to the FBI Laboratory's
Federal DNA Database Unit (FDDU). The majority of such submissions are expected from the U.S.
Customs and Border Protection (CBP), with a secondary level from U.S. Immigration and Customs
Enforcement (ICE). The most recent projections of the FBI Laboratory indicate that approximately 10-
20% of the FDDU workload in fiscal year 2012 will be contributed by CBP or ICE. This estimate has
increased from historical CBP and ICE submission rates of less than 5% of the FDDU workload. The FBI
Laboratory has scheduled on-site training and operational/deployment meetings with the CBP during
October 2011 in Tucson, AZ. It is anticipated that an updated time-line for CBP arrestee/detainee sample
collection projections may be available following such on-site planning sessions. In an effort to ensure
efficient submissions, the FBI Laboratory will also provide DHS instruction regarding proper DNA sample
collection techniques and submission procedures for arrestee and detainee samples. The FBI Laboratory is
not in a position to assist DHS with determining the criteria used to collect and submit arrestee and
detainee DNA samples as described within Recommendation #2. We understand that legal and policy
decisions concerning those criteria as well as DHS's implementation of such legislation are being
coordinated by the Department of Justice Office of Legal Policy and the DHS Office of the Secretary.

Recommendation #3: Finalize a long-term plan for DNA sample storage space.




1




                                                 39 

 




FBI Response to Recommendation #3: Concur - The FBI Laboratory will formalize and continue to 

implement the plan developed by the unit for the long-term storage of DNA samples. 

The plan is composed of a series of sequential phases: 

   	 Acquisition of additional space permitting expansion of FDDU operations within the FBI
       Laboratory facility. Completed August 2011.
            o	 Relocation of sample accessioning operations, enabling space for electronic retriever
               systems (sample storage)
            o	 Relocation of unit administrative activities, resulting in additional space for further
               expansion of electronic retriever systems, if needed.
   	 Procurement and implementation of nine systems electronic retriever storage systems,
       customized for use within FDDU room dimensions, with a projected combined storage capacity
       for over 825,000 samples. On-schedule for completion by November 2011.
            o Augments unit's existing storage capacity of 775,000 samples

    Development and execution of an off-site lease for continued DNA sample storage 

            o	 Coordination with the Space Management Unit, FBI HQ initiated August 2011
            o	 Off site lease will allow for samples to be stored on-site at the FBI Laboratory for at
               least one year after receipt (assuming most pessimistic sample receipt projections) to
               facilitate hit confirmations which occur when these samples are uploaded, thus
               mitigating the risk associated with off-site storage and retrieval




2




                                                  40 

 


                                                              APPENDIX IV

               OFFICE OF THE INSPECTOR GENERAL 

              ANALYSIS AND SUMMARY OF ACTIONS

                NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the FBI. The FBI’s
response is incorporated in Appendix III of this final report. The following
provides the summary of actions necessary to close the report.

Summary of Actions Necessary to Close the Report

    1. Resolved. The FBI concurred with our recommendation to develop
       and implement policies and procedures that document the
       methodology used to report its workload statistics and backlog
       calculations. The FBI stated in its response that the policies for the
       Federal DNA Database Unit’s (FDDU) laboratory information
       management system were formally documented on June 15, 2011.
       The FBI plans to make additional modifications to its laboratory
       information management system in FY 2012. After the laboratory
       information management system’s modifications are completed, the
       FBI will revise the June 15, 2011 procedures as standardized
       methodologies for reporting workload statistics and production
       metrics.

       This recommendation can be closed when we receive the finalized
       policies for reporting working and production metrics, and
       documentation that these policies and procedures have been
       implemented.

    2. Resolved. The FBI concurred with our recommendation to coordinate
       with the Department of Homeland Security (DHS) to determine the
       criteria used to collect and submit detainee DNA samples, and if
       appropriate, revise estimates for monthly sample receipt so the FBI
       Laboratory can plan for any influx of detainee DNA samples. The FBI
       stated in its response that it plans to remain in communication with
       the DHS components that are likely to submit DNA samples to the
       FDDU. The FBI Laboratory estimated that approximately 10 to 20
       percent of the FDDU workload in 2012 will be from DHS contributors.
       Additionally, the FBI Laboratory has scheduled on-site training and
       operational/deployment meetings with U.S. Customs and Border Patrol



                                       41 

 


      in Tucson, Arizona, for October 2011. The FBI will provide DHS with
      instructions on the proper DNA sample collection techniques.

      This recommendation can be closed when we receive documentation
      that the FBI is actively coordinating with the DHS, and documentation
      describing how the FBI plans to handle DNA sample influxes from DHS.

    3. Resolved. The FBI concurred with our recommendation to finalize a
       long-term plan for DNA sample storage space. The FBI stated in its
       response that it intends to formalize and continue to implement the
       plan for the long-term storage of DNA samples. The FBI listed aspects
       of the long-term plan, such as acquiring additional space for the
       expansion of FDDU, procuring and implementing customized electronic
       retriever storage systems, and developing and executing an off-site
       lease for continued DNA storage.

      This recommendation can be closed when we receive the finalized
      long-term plan for DNA sample storage and evidence that the FBI has
      implemented the long-term plan.




                                     42 

